SERVICE LIST
Counsel for Appellees Optis Cellular Technology, LLC,
Optis Wireless Technology, LLC, and Unwired Planet
International Limited
JASON SHEASBY
HONG ANNITA ZHONG
IRELL & MANELLA LLP
1800 Avenue of the Stars
Los Angeles, CA 90067
(310) 203-7096 / jsheasby@irell.com
(310) 203-7183 / hzhong@irell.com
Counsel for Intervenor Andrew Hirshfeld, Performing
the Functions and Duties of the Under Secretary of
Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office
ELIZABETH PRELOGAR
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217
THOMAS W. KRAUSE
Solicitor
FARHEENA YASMEEN RASHEED
Deputy Solicitor
MICHAEL S. FORMAN
Associate Solicitor
MOLLY R. SILFEN
Associate Solicitor
UNITED STATES PATENT AND TRADEMARK OFFICE
OFFICE OF THE SOLICITOR
401 Dulany Street
Randolph Building
Customer Service Window
Alexandria, VA 22314
(571) 272-9035 / thomas.krause@uspto.gov
farheena.rasheed@uspto.gov
michael.forman@uspto.gov
molly.silfen@uspto.gov

